                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS


11                                           CLOSEOUT MEMORANDUM

11   TO: AIGI       ( File Number: 196030007                                        Date: 6 June 2002


Il   Subject: Closeout Memo                                                                  Page 1 of 1


          There was no closeout written at the time this case was closed. The following information was
          extracted from the file in conformance with standard closeout documents.

          Our office was informed that the subject', the former PI of an NSF grant2,had fraudulently misused
          NSF funds, attempted to force the complainant to falsify information to NSF, and fired the
          complainant in retaliation for reporting these problems to NSF. The complainant had sued the
          subject's institution3for wrongful termination.

          Our office found that the subject and the complainant disagreed on programatic issues involving an
          NSF grant and that the NSF program officers were generally aware of these issues. The subject and
          his institution claimed that the complainant was fired because of insubordination,poor performance,
          unprofessional behavior, and failure to follow the institution's policies. Both Oversight and
          Investigation reviewed the material and determined that there was no cause for NSF-OIG to continue
          an investigation.

           Accordingly this case is closed.




                    1
                    I
                        Prenared
                        ---
                           r --- - bv:   1
                                         I                 Cleared by:            111
                    1 Agent:             1 Attorney:    I Supervisor:    I AIGI   111
        Name:



      Signature &
         date:
